No. 20-7065

IN THE
SUPREME COURT OF THE UNITED STATES

ANIBAL CANALES, JR., PETITIONER,

v.
BOBBY LUMPKIN, RESPONDENT.
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
Brief of Arizona Capital Representation Project, Capital Appeals Project,
Capital Post-Conviction Project of Louisiana, Center for Death Penalty
Litigation, Georgia Resource Center, Justice 360, Louisiana Capital
Assistance Center, Mississippi Office of Capital Post-Conviction Counsel,
and Promise of Justice Initiative as Amici Curiae in Support of Petitioner
Alexis Hoag*
Associate Research Scholar & Lecturer
Columbia Law School
435 West 116th Street, Ste 605
New York, NY 10027
(203) 645-4918
alexis.hoag@law.columbia.edu
Heather Fraley
411 E. Bonneville, Ste 250
Las Vegas, NV 89101
(702) 388-5179
heatherfraley512@gmail.com
*Counsel for Amici Curiae

TABLE OF CONTENTS

INTEREST OF AMICI CURIAE

1

SUMMARY OF ARGUMENT

4

ARGUMENT

5

The Fifth Circuit announced a new, heightened standard for assessing
prejudice on claims of penalty phase ineffective assistance of counsel

5

The heightened prejudice standard should be rejected because it is
inconsistent with this Court's commitment to ensuring all substantial
claims of ineffective assistance of counsel receive meaningful review by at
least one court.

8

Applying the heightened prejudice standard would deprive petitioners of
individualized sentencing

10

Applying the heightened prejudice standard ensures that egregious
instances of ineffective assistance of counsel will go uncorrected

13

CONCLUSION

17

ii

TABLE OF AUTHORITIES
CASES
Andrus v. Texas, 140 S. Ct. 1875 (2020)

13, 15

Desist v. United States, 394 U.S. 244 (1969)

9

Harrington v. Richter, 562 U.S. 86 (2011)

4, 6

Martinez v. Ryan, 566 U.S. 1 (2012)

8, 9

Panetti v. Quarterman, 551 U.S. 930 (2007)

12

Porter v. McCollum, 558 U.S. 30 (2009)

11, 14, 15

Rompilla v. Beard, 545 U.S. 374 (2005)

11, 14, 15, 16

Sears v. Upton, 561 U.S. 945 (2010)

12

Shinn v. Kayer, 141 S. Ct. 517 (2020)

11

Slack v. McDaniel, 529 U.S. 473 (2000)

5

Strickland v. Washington, 466 U.S. 668 (1984)
Wiggins v. Smith, 539 U.S. 510 (2003)

passim
4, 6, 7, 15

Williams v. Taylor, 529 U.S. 362 (2000)

11, 15

Woodson v. North Carolina, 428 U.S. 280 (1976)

10

Zant v. Stephens, 462 U.S. 862 (1983)

11

STATUTES
Antiterrorism and Effective Death Penalty Act, 28 U.S.C. § 2254

4

CONSTITUTIONAL PROVISIONS
Sixth Amendment

passim

iii

INTEREST OF AMICI CURIAE

Amici curiae are organizations from around the country that represent
capital petitioners seeking post-conviction relief in both state and federal court. 1
Amici share a common interest in preserving habeas corpus as a meaningful forum
for vindicating the Sixth Amendment right to the effective assistance of trial
counsel in capital cases. Amici also offer a shared expertise in habeas law generally,
and, more specifically, in the various standards for assessing claims of ineffective
assistance of counsel in both state and federal court.
The Arizona Capital Representation Project (ACRP) is a non-profit legal
services organization that has, since 1988, been dedicated to ensuring that all
capital defendants are treated fairly and receive effective representation. ACRP
serves its mission by providing pro bono training and consulting to capital defense
teams, appearing as amicus curiae in appropriate cases, and providing targeted
direct representation. ACRP primarily serves Arizona defendants and defense
teams, but also provides training and assistance in other jurisdictions.
The Capital Appeals Project (CAP) is a state-funded non-profit organization
that represents individuals on Louisiana's death row in their post-trial, direct
appeal and post-conviction proceedings and juveniles sentenced to life without
parole in their sentencing proceedings, and provides consultation and support to

1 Pursuant to this Court's Rule 37, amici state that this brief was not authored
in whole or in part by counsel for any party, and that no person or entity made a
monetary contribution intended to fund the preparation or submission of this brief.
Timely notice of the filing of this brief was given to both parties, and both parties
have consented in writing to its filing.
1

capital trial practitioners.
The Capital Post-Conviction Project of Louisiana (CPCPL) provides highquality direct representation to death-sentenced Louisiana clients in post-conviction
and acts as resource counsel for pro bono law firms representing capital postconviction clients. State post-conviction representation provides the primary
opportunity for a court to review newly discovered evidence that has come to light
only after the original trial and death sentence have been finally adjudicated on
direct appeal to the Louisiana Supreme Court.
The Center for Death Penalty Litigation (CDPL) is a non-profit law firm that
represents people on North Carolina's death row, provides consultation and training
to capital defense teams at trial and in post-conviction proceedings, coordinates
capital litigation, and serves as a clearinghouse for accurate and timely information
on the North Carolina death penalty.
The Georgia Resource Center is a nonprofit law office established in 1988 to
provide representation to people on Georgia's death row in state and federal postconviction proceedings, as well as clemency proceedings before the Georgia Board of
Pardons and Paroles.
Justice 360 is a non-profit law firm that represents people facing the death
penalty in South Carolina, generally in post-conviction proceedings in state and
federal court, and represents juveniles facing life without parole sentences. Justice
360 also serves as a resource center for other attorneys in the state litigating capital
trial and post-conviction cases.
2

The Louisiana Capital Assistance Center (LCAC) has operated as a nonprofit law office specializing in capital defense for over twenty-five years,
representing clients in capital proceedings in Louisiana, Texas and Mississippi.
The LCAC represents clients at trial, on appeal, and in state and federal habeas
proceedings.
The Mississippi Office of Capital Post-Conviction Counsel (MOCPCC) is a
statutory agency that is tasked with providing representation in state court postconviction litigation to indigent defendants who are under a sentence of death after
failing to retain relief via direct appeal. MOCPCC also assists in the procurement of
outside counsel when our office is representing a co-defendant or otherwise
conflicted from providing representation.
The Promise of Justice Initiative is a Louisiana based non-profit law office
that provides capital representation in federal habeas corpus litigation.
Counsel for amici curiae, Alexis Hoag, is a research scholar and lecturer at
Columbia Law School where her teaching and scholarship include capital postconviction defense and right to counsel. Prior to academia, counsel spent over a
decade representing death sentenced individuals in federal capital habeas
proceedings. Counsel Heather Fraley has spent nearly fifteen years representing
death sentenced individuals in state and federal habeas proceedings.
Together, amici write to explain why granting certiorari is necessary to
preserve the integrity of the Sixth Amendment right to counsel in capital cases.

3

SUMMARY OF ARGUMENT
This Court should grant certiorari because the Fifth Circuit's decision marks
a significant departure from this Court's precedents defining and applying the
standard of review for claims of ineffective assistance of counsel. State and federal
habeas proceedings serve an important role in preserving the Sixth Amendment
right to counsel, as petitioners often cannot raise or adequately develop claims of
ineffective assistance of counsel on direct appeal. To succeed on a claim of
ineffective assistance under Strickland v. Washington, 466 U.S. 668, 694 (1984), a
petitioner must prove there is a reasonable probability of a more favorable outcome
if trial counsel had performed effectively. In Wiggins v. Smith, 539 U.S. 510, 537
(2003), this Court applied the Strickland standard to a claim of ineffective
assistance at the penalty phase of a capital trial, holding that a lawyer's deficient
performance is prejudicial if there is "a reasonable probability that at least one
juror" that voted for death at trial "would have struck a different balance."
In the decision below, the Fifth Circuit redefined this standard in a way that
threatens to eviscerate the right to effective assistance of counsel in capital cases.
Instead of applying Wiggins, the Fifth Circuit concluded that Harrington v. Richter,
562 U.S. 86 (2011)—a non-capital case decided under deferential AEDPA2 review—
narrowed Stricklands prejudice prong by requiring all petitioners, even those
entitled to de novo review, to prove their facts closely mapped onto one of this

2 AEDPA refers to the Antiterrorism and Effective Death Penalty Act, 28
U.S.C. § 2254.
4

Court's cases granting relief.
This distorted interpretation of Richter establishes an almost impossible
standard for proving prejudice. The Fifth Circuit's rule both deprives capital
petitioners of the individualized sentencing that the constitution guarantees and
prevents reviewing courts from correcting egregious instances of constitutional
error. This Court should grant the Petition to reaffirm that the standard announced
in Wiggins remains the standard for assessing prejudice on all claims of penalty
phase ineffective assistance, and that Richter did nothing to heighten or alter this
standard.
ARGUMENT
I.

The Fifth Circuit announced a new, heightened standard for
assessing prejudice on claims of penalty phase ineffective assistance
of counsel.
It is axiomatic that the writ of habeas corpus plays an essential role in

protecting constitutional rights. See Slack v. McDaniel, 529 U.S. 473, 483 (2000).
And few constitutional rights are more frequently asserted in habeas than the right
to effective assistance of counsel. Every habeas lawyer knows they can establish a
Sixth Amendment violation if they can prove both that counsel's performance at
some critical stage of the proceeding was deficient because it fell below objective
standards of reasonableness, and that their client was prejudiced because there is a
reasonable probability of a more favorable outcome if counsel had performed
effectively. Strickland, 466 U.S. at 694.
For capital habeas lawyers, it is equally well known that to establish error in
5

the penalty phase of a capital trial, one must prove "there is a reasonable
probability that at least one juror would have struck a different balance" if counsel
had performed effectively. Wiggins, 539 U.S. at 537. Satisfying this standard is not
easy (as the hundreds of petitioners who have lost such claims can attest), but it is
even more difficult when a court reviews the claim under the deferential lens of the
AEDPA. As this Court explained in Harrington v. Richter, where a state court
reviews a claim of ineffective assistance on the merits, the federal court may only
grant relief if fair-minded jurists could not disagree that the state court's
adjudication was unreasonably wrong. 562 U.S. at 101.
After clarifying the standard for reviewing claims of ineffectiveness under the
AEDPA, this Court in Richter explained that proving a reasonable probability of a
more favorable outcome under Strickland means the "likelihood of a different result
must be substantial, not just conceivable." Richter, 562 U.S. at 112. As discussed in
detail in Mr. Canales's Petition, in the ten years since Richter, every other circuit
court that routinely applies Wiggins has interpreted the "substantial likelihood"
language as a mere restatement of the prejudice standard established in Strickland
and refined in the capital penalty phase context in Wiggins. According to the Fifth
Circuit, however, Richter established a new standard for proving prejudice on
ineffectiveness claims, even those claims subject to a de novo standard of review.
In the decision below, the Fifth Circuit held that the Strickland prejudice
standard is no longer satisfied "when the new mitigating evidence 'might have'
influenced one juror," because Richter "established" a new, heightened standard for
6

proving prejudice from penalty phase ineffectiveness in a capital case, which it calls
the "substantial likelihood standard." Pet. App. 5a.3 The Fifth Circuit held Richter
"made no distinction between cases that were reviewed de novo and those that
received deference under the [AEDPA]." Id.
The Fifth Circuit applied its heightened prejudice standard to Mr. Canales
when it identified minor differences between his case and those where this Court
had found prejudice from penalty phase ineffectiveness, concluding that because
Mr. Canales's mitigation case was not identical to those cases, he was not entitled to
relief. Pet. App. 6a-7a. The court discounted to irrelevance substantial new evidence
of Mr. Canales's childhood trauma, physical and sexual abuse, neglect,
abandonment, post-traumatic stress disorder, and coercion from prison gangs,
because it did not identically match the evidence this Court found prejudicial in
other cases. Pet. App. 6a. Judge Higginbotham's dissent makes clear that a court
applying the proper standard of review under Wiggins would easily have found
prejudice on the facts of Mr. Canales's case. Pet. App. 9a-13a.
This Court should grant review to expressly reject the heightened prejudice
standard that the Fifth Circuit adopted, and reaffirm the applicability of the
Wiggins standard, because (1) the Fifth Circuit's heightened prejudice standard is

3 This interpretation of Richter as announcing new law is inconsistent with this
Court's retroactivity jurisprudence, which holds that new substantive law will not be
made in cases on collateral review. See Wiggins, 539 U.S. at 522 ("Williams' case was
before us on habeas review. Contrary to the dissent's contention, we therefore made
no new law in resolving Williams' ineffectiveness claim.").
7

inconsistent with this Court's commitment to ensuring substantial claims of
ineffective assistance of counsel receive meaningful review by at least one court; (2)
the heightened prejudice standard will deprive capital petitioners of individualized
sentencing; and (3) the heightened standard will eviscerate the right to effective
assistance of counsel at the penalty phase of capital trials.
II.

The heightened prejudice standard should be rejected because it is
inconsistent with this Court's commitment to ensuring all
substantial claims of ineffective assistance of counsel receive
meaningful review by at least one court.
This Court's decision in Martinez v. Ryan, 566 U.S. 1, 12 (2012), was acutely

focused on the importance of habeas proceedings in preserving "the foundation for
our adversary system"—the Sixth Amendment right to effective assistance of
counsel. There, the Court explained that although rules of finality and federalism
guide federal habeas courts, those rules must give way where they jeopardize the
ability of courts to correct substantial claims of ineffective assistance of counsel. Id.
Weighing the risk "that no state court at any level will hear the prisoner's" Sixth
Amendment claim against the interests of finality and federalism, this Court
concluded that federal habeas petitioners who could prove their initial-review
counsel were ineffective were entitled to a de novo merits review of their claims of
trial counsel ineffectiveness. Id. at 10-11.
This Court's acknowledgement in Martinez that "[t]he right to the effective
assistance of counsel at trial is a bedrock principle in our justice system," id. at 12,
highlights the importance of providing a meaningful forum for individuals to
8

vindicate that right. "A prisoner's inability to present a claim of trial error is of
particular concern when the claim is one of ineffective assistance of counsel"
because "[d]efense counsel tests the prosecution's case to ensure that the
proceedings serve the function of adjudicating guilt or innocence, while protecting
the rights of the person charged." Id. Whether a petitioner raises a substantial
claim of ineffective assistance of counsel for the first time on direct appeal, in an
initial review-collateral proceeding, or in federal habeas, the reviewing court must
give it "proper consideration." Id. at 14. But ensuring Sixth Amendment claims
receive proper consideration means preventing lower courts from applying unduly
burdensome standards of review. As explained in detail in Sections III and IV
below, the Fifth Circuit has created an unduly burdensome standard of review.
Martinez reflects this Court's commitment to ensuring all colorable claims of
constitutional error under the Sixth Amendment's right to counsel receive
meaningful review. The Fifth Circuit's imposition of a heightened prejudice
standard to any petitioner, but particularly one whose claim it was reviewing under
Martinez, undermines this goal. This Court has recognized the importance of
habeas in preserving the constitutional rights of those accused of crimes, especially
those who may pay the ultimate price. See Desist v. United States, 394 U.S. 244, 262
(1969) (Harlan, J., dissenting) ("[T]he threat of habeas serves as a necessary
additional incentive for trial and appellate courts throughout the land to conduct
their proceedings in a manner consistent with established constitutional
standards."). The only way to preserve habeas as a meaningful forum for
9

vindicating the right to effective assistance of counsel is to reject the Fifth Circuit's
heightened prejudice standard and reaffirm that Wiggins remains the proper
standard for assessing penalty phase ineffectiveness claims.
III. Applying the heightened prejudice standard would deprive
petitioners of individualized sentencing.
Central to this Court's death penalty jurisprudence is an acknowledgement of
the importance of individualized sentencing. "[I]n capital cases the fundamental
respect for humanity underlying the Eighth Amendment, requires consideration of
the character and record of the individual offender and the circumstances of the
particular offense as a constitutionally indispensable part of the process of inflicting
the penalty of death." Woodson v. North Carolina, 428 U.S. 280, 304 (1976). And while
anchored in the Eight Amendment, the right to individualized sentencing also plays
a role in assessing prejudice under the Sixth Amendment right to counsel. Pursuant
to Strickland, a court must decide what impact new mitigating evidence may have
had on a jury's individualized assessment of the appropriate sentence.
Rather than focus on how a jury might conduct an individualized assessment
of the facts at hand, the Fifth Circuit's heightened prejudice standard focuses on
whether a capital petitioner's newly presented mitigating evidence differs in any way
from the facts of this Court's cases finding prejudice from penalty phase
ineffectiveness. Mr. Canales could not demonstrate prejudice, the Court of Appeals
held, because unlike the petitioner in Wiggins, he did not suffer from diminished
capacity nor did he lack a record of violent conduct, Pet. App. 7a; unlike the petitioner
10

in Williams v. Taylor, 529 U.S. 362 (2000), Mr. Canales was not borderline
intellectually disabled and had not expressed remorse, Pet. App. 7a; unlike the
petitioner in Rompilla v. Beard, 545 U.S. 374, 377 (2005), there was no evidence
presented at trial that Mr. Canales had a benign childhood, Pet. App. 6a n.2; and
unlike the petitioner in Porter v. McCollum, 558 U.S. 30, 30 (2009), Mr. Canales failed
to show a nexus between his mitigating evidence and his offense, Pet. App. 6a n.2.
Mr. Canales's inability to prove prejudice, therefore, stemmed from the factual
dissimilarities between his case and this Court's cases granting relief.
Assessing prejudice based on a checklist of factors found persuasive in prior
cases is precisely the approach this Court rejected in Shinn v. Kayer, 141 S. Ct. 517,
525 (2020). In that case, petitioner argued that the Arizona Supreme Court was
unreasonable for failing to find prejudice on his penalty phase ineffective assistance
of counsel claim because the facts of his case were so similar to the facts of other cases
where the Arizona Supreme Court granted relief. Id. This Court rejected that
approach, explaining that "capital sentencing requires an

individualized

determination on the basis of the character of the individual and the circumstances
of the crime." Id. at 526 (emphasis in original) (quoting Zant v. Stephens, 462 U.S.
862, 879 (1983)). "[Blecause the facts in each capital sentencing case are unique, the
weighing of aggravating and mitigating evidence in a prior published decision is
unlikely to provide clear guidance about how a state court would weigh the evidence
in a later case." Id.

11

So, too, here, where the Fifth Circuit was acting as the initial review court for
Mr. Canales's Wiggins claim, the prior published decisions of this Court were unlikely
to provide clear guidance on how a jury might weigh the aggravating evidence against
Mr. Canales's new mitigating evidence. Of course, it is incumbent upon courts of
appeals to look to this Court's decisions for guidance, but as this Court held in Shinn,
each capital sentencing case is unique. That a petitioner's facts do not identically
align with the facts of Wiggins, Porter, Williams, or Rompilla does not mean relief is
foreclosed. Even the "AEDPA does not require state and federal courts to wait for
some nearly identical factual pattern before" finding a constitutional violation.
Panetti v. Quarterman, 551 U.S. 930, 953 (2007). But particularly in cases (like this
one) where the unreasonableness of a prior state court decision is not at issue, courts
must move beyond caselaw comparisons and conduct an individualized
determination, based on the facts presented, to determine if there is a reasonable
probability of a different outcome. The Fifth Circuit did not conduct such an
individualized determination here, and will not conduct an individualized
determination in the future if its heightened prejudice standard is left unchecked.
This Court has "consistently explained that the Strickland inquiry requires
precisely the type of probing and fact-specific analysis that the [Fifth Circuit] failed
to undertake below." Sears v. Upton, 561 U.S. 945, 955 (2010). By focusing on the
facts of other cases, rather than on whether the new mitigating facts in this case
might have convinced at least one juror to vote for a sentence less than death, the
Fifth Circuit deprived Mr. Canales of the individualized sentencing determination to
12

which he was entitled. This Court should grant certiorari and hold that such an
erosion of the right to individualized sentencing is unacceptable under our
Constitution.
IV.

Applying the heightened prejudice standard ensures that egregious
instances of ineffective assistance of counsel will go uncorrected.
How this Court defines the prejudice standard for ineffectiveness claims

determines how weak or robust the Sixth Amendment right to counsel will be.
Requiring petitioners to prove a reasonable probability that at least one juror would
have voted for a sentence less than death filters out the weak Sixth Amendment
violations while capturing the egregious ones. But requiring petitioners to prove
that the facts of their case identically match the facts of a previous case granting
relief ensures that reviewing courts will overlook valid claims of error.
It was likely for this reason that the Court, in Andrus v. Texas, rejected the
argument that "the prejudice inquiry here turns principally on how the facts of this
case compare to the facts in Wiggins." 140 S. Ct. 1875, 1887 n.6 (2020). Though the
Fifth Circuit below claimed to find support for its heightened prejudice standard in
Andrus, in truth, the Court's holding that "we have never before equated what was
sufficient in Wiggins with what is necessary to establish prejudice" directly
contradicts the Fifth Circuit's approach to Mr. Canales's case. See id. By applying
its heightened prejudice standard, the Fifth Circuit "unreasonably discounted to
irrelevance" evidence of trauma and abuse that had a reasonable probability of
convincing at least one juror to vote for a sentence less than death. Porter, 558 U.S.
13

at 43.
This case presents a quintessential example of prejudicially ineffective
assistance of counsel. At trial, the jury heard simply that "[Mr.] Canales did not
cause trouble, had an aptitude for art, and received few visits from family, and that
he had tried to stop inmates from fighting." Pet App. 6a. The new mitigating
evidence "bears no relation" to this meager presentation. Rompilla, 545 U.S. at 393.
The new evidence paints a picture of a man who grew up in poverty, often
without a home and hungry, giving food to his sister so she could eat. A man who
"both suffered and witnessed horrific violence and sexual assault" throughout his
childhood. Pet. App. 9a. From age six to twelve, his stepfather "regularly beat Mr.
Canales, stripping him naked, dragging him by the ears, and then whipping him
with a belt . . . until he had welts and bruises all over his body." Id. The stepfather
also tried to rape Mr. Canales, and raped and beat Mr. Canales's sister in front of
him. Id. Mr. Canales began shining shoes and selling newspapers on the streets at
age eight, and was forced to join a gang. Id. He bounced between his mother's home
and father's home, experiencing bouts of housing insecurity. At age thirteen, Mr.
Canales's father abandoned him in Houston. Id. As a result, Mr. Canales became an
alcoholic by age fourteen, and later became addicted to heroin. At the time of the
offense, Mr. Canales suffered from post-traumatic stress disorder and a heart
condition that caused uncontrollable bleeding, rendering him vulnerable to prison
gang violence.
This evidence is precisely the type of evidence this Court has repeatedly
14

acknowledged may render a defendant less culpable in the eyes of a jury. See Penry
v. Lynaugh, 492 U.S. 302, 316 (1989). This is also the type of evidence this Court
has found mitigating in cases far more aggravated than this one. Compare Pet. App.
22a (Mr. Canales held the single adult male victim, a prison inmate, while another
inmate strangled him to death) with Andrus, 140 S. Ct. at 1878 (double murder);
Porter, 558 U.S. at 31 (double murder); Rompilla, 545 U.S. at 377-78 (defendant
beat victim with a blunt object, stabbed him sixteen times in the neck and head,
and set his body on fire); Wiggins, 539 U.S. at 514 (defendant drowned a 77-year-old
woman); Williams, 529 U.S. at 367-68 (defendant beat victim to death with a
mattock). And it is the type of evidence this Court has found sufficient to satisfy the
Strickland prejudice standard even under the deferential lens of the AEDPA. See
Porter, 558 U.S. at 42; Williams, 529 U.S. at 367-68.
A comparison of this Court's other seminal penalty phase ineffectiveness
cases reveals how few of those cases would have been decided the same way if the
Fifth Circuit's heightened prejudice standard had been applied. For example,
according to the Fifth Circuit, the petitioner in Williams was able to demonstrate
prejudice (even under deferential AEDPA review), in part, because he had
expressed remorse at his sentencing hearing. 529 U.S. at 398. If expressing remorse
was required to prove prejudice, then neither Wiggins, Rompilla, Porter, nor Sears
would have been able to demonstrate prejudice. The petitioner in Wiggins was able
to demonstrate prejudice, in part, because he lacked a violent record. 539 U.S. at
513. If lacking a violent record was required to prove prejudice, then Williams,
15

Rompilla, Porter and Andrus would have been unable to prove prejudice. The
petitioner in Rompilla was able to demonstrate prejudice, in part, because the
evidence at trial created a "benign conception of Rompilla's upbringing" which the
new mitigating evidence would have counteracted. 545 U.S. at 378. If counteracting
a benign conception of one's childhood was required to prove prejudice, then
Wiggins and Porter would not have been able to prove prejudice. Porter involved
prior military service, unlike any of the other cases, indicating that if prior military
service were required to prove prejudice, only Porter would have been able to
demonstrate prejudice.
If this Court finds the above exercise ridiculous, it should. But this is
precisely the exercise the Fifth Circuit held was required under Richter, and it is
precisely the exercise the court will continue to undertake in the future if this Court
does not grant certiorari and correct the error below. Requiring apples-to-apples
comparisons of mitigating evidence in capital cases is not only difficult, it threatens
to eviscerate the right to effective representation in the penalty phase of a capital
trial.
Mr. Canales's case is exactly the type of case that should be reversed for
prejudicial Sixth Amendment error: a severely damaged and traumatized man was
sentenced to death without a jury of his peers ever hearing about the horrific life
experiences that shaped him. Because the new mitigating evidence might have
convinced at least one juror to vote for a sentence less than death, a new jury ought
to have the opportunity to weigh the evidence and asses the appropriate sentence.
16

But under the Fifth Circuit's interpretation of Strickland, the facts of Mr. Canales's
case were not enough. If Mr. Canales's case does not satisfy the heightened
prejudice standard that the Fifth Circuit announced, then no case ever will. This
Court must not allow the error in Mr. Canales's case, or other cases like it, to stand.
This Court should take this opportunity to clarify what it said in Andrus and insist
that the prejudice determination in each case turns on its own unique facts, not on
whether the facts here align with the facts in Wiggins.
CONCLUSION
The Court should grant certiorari and hold that Wiggins remains the
controlling law of the land.
Dated March 8, 2021
Respectfully submitted,
/s/ Alexis J. Hoag
ALEXIS J. HOAG

/s/ Heather Fraley
HEATHER FRALEY

17

